NO. 20-603

In the
Supreme Court of the United States
LE ROY TORRES,
Petitioner,
V.

TEXAS DEPARTMENT OF PUBLIC SAFETY,
Respondent.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar and,
as required by Supreme Court Rules 33.1(h) and 33.1(g), the BRIEF OF AMICI
CURIAE PHILIP C. BOBBITT, MICHAEL C. DORF, AND H. JEFFERSON
POWELL IN SUPPORT OF PETITION FOR CERTIORARI contains 5,739 words,
excluding the parts that are exempted by Supreme Court Rule.
Dated: December 23, 2020

Respectfully submitted,

Arn Jacobsen

